In the

Supreme Court of the United States
October Term, 2020

Efrain Hidalgo,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Efrain Hidalgo, requests leave to file the annexed Petition for a
Writ of Certiorari to the United States Supreme Court for the Second Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39. The United
States Court of Appeals for the Second Circuit appointed counsel, Robin C. Smith, under
the Criminal Justice Act of 1964, 18 U.S.C. Section 3006A, to represent Petitioner.
Petitioner has remained incarcerated since the commencement of his case, and, on
information and belief, is indigent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 3, 2021
San Rafael, California

ROBIN C. SMITH, ESQ.
Law Office of Robin C. Smith,
Esq., P.C.
Attorney for Petitioner
802 B Street
San Rafael, CA 94901
(415) 726-8000
rcs@robinsmithesq.com

